           Office Of Inspector General




December 24, 2003

TIMOTHY C. HANEY
MANAGER, CAPITAL DISTRICT

SUBJECT:         Audit Report – Efficiency of Work Performed by Clerks in the Southern
                 Maryland Business Mail Entry Unit (Report Number NO-AR-04-001)

This report presents the results of our audit of work performed by business mail
entry employees in the Southern Maryland Business Mail Entry Unit (Project
Number 03YG051AC000). This self-initiated audit was conducted jointly with
Capital Metro Area Marketing managers.

Our audit disclosed workhours necessary to accept business mailings in the Southern
Maryland Business Mail Entry Unit were excessive. During the audit, Postal Service
management agreed to aggressively reduce business mail entry workhours
by 20,240 hours by the end of fiscal year 2006. We calculated the financial
impact of this reduction in workhours could produce an estimated cost avoidance
of approximately $8.4 million over 10 years. We recommended the manager, Capital
District, reduce hours as planned and periodically reevaluate staffing needs.
Management agreed with our finding and recommendations and actions taken or
planned should correct the issues identified in the report. Management’s comments
and our evaluation of these comments are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Robert J. Batta,
director, Network Operations-Processing, at (703) 248-2100 or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment




   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
cc: John A. Rapp
    Anita J. Bizzotto
    John R. Wargo
    Jerry D. Lane
    Tammy T. Edwards
    Michele A. Denny
    Susan M. Duchek
Efficiency of Work Performed by Clerks in the                                                       NO-AR-04-001
 Southern Maryland Business Mail Entry Unit


                                            INTRODUCTION
    Background                       There are over 2,000 business mail entry units located in
                                     Postal Service facilities nationwide. They accepted
                                     approximately $36.7 billion in revenue in fiscal year
                                     (FY) 2002, which represents about 56 percent of the Postal
                                     Service’s total revenue. Business mail entry unit clerks
                                     receive business mailers' bulk, presorted, and permit mail
                                     for acceptance. Business mail is accepted using dedicated
                                     platform space, office space, and a staging area on the
                                     workroom floor. A business mail entry clerk, using
                                     prescribed acceptance procedures, typically performs
                                     mailing verifications. Verification procedures include
                                     verifying fees and funds on deposit, reviewing contents of
                                     mailpieces, checking of labels and mail make up, and
                                     completing postage verification.

                                     Business mail entry clerks are primarily located at
                                     processing and distribution centers. However, some clerks
                                     are located or operate at bulk mail centers, detached mail
                                     units, associated post offices, and satellite offices.

                                     The Postal Service operations are organized into
                                     nine areas, as depicted below. The Southern Maryland
                                     Business Mail Entry Unit1 is located in the Capital Metro
                                     Area.




1
 In FY 2002, the Washington D.C., business mail entry operations were transferred to the Southern Maryland
Business Mail Entry Unit. Because of this mixing, our review includes combined data for both the Southern Maryland
and Washington D.C., Business Mail Entry Units, and the combination is labeled as Southern Maryland in this report.




                                                       1
Efficiency of Work Performed by Clerks in the                                                      NO-AR-04-001
 Southern Maryland Business Mail Entry Unit



                                     As shown in Appendix A, Southern Maryland business
                                     mailings2 per workhour have consistently been below area,
                                     national, and benchmark averages since FY 2000.

    Objective, Scope, and            The objective of our audit was to assess the efficiency
    Methodology                      of work performed by business mail entry clerks within the
                                     Southern Maryland Business Mail Entry Unit. To assess the
                                     efficiency of work performed, we observed business mail
                                     entry unit operations and analyzed business mail volumes
                                     and workhours. In addition, we benchmarked the Southern
                                     Maryland Business Mail Entry Unit revenues and mailings
                                     with comparable business mail entry units.

                                     Our review consisted of business mail entry units at
                                     two processing and distribution centers, Southern Maryland
                                     and Washington, D.C. In addition to these sites, we
                                     reviewed detached mail units located at customer sites.

                                     We relied on Postal Service operational systems, including
                                     the National Workhour Reporting System, Standard Field
                                     Accounting System Unit revenue data, Web Enterprise
                                     Information System, and the Permit System to perform our
                                     analysis of mailings and workhours. We did not test the
                                     validity of controls over these systems. However, we
                                     checked the accuracy of data by confirming our analysis
                                     and results with Postal Service managers. Nothing came to
                                     our attention to suggest data used was unreliable.

                                     Our review also did not account for the impact of MERLIN
                                     (Mailing Evaluation, Readability, Lookup Instrument) on
                                     business mail entry unit workhours. MERLIN is a new
                                     Engineering developmental effort, initiated by Marketing
                                     systems to automate many of the functions performed by
                                     acceptance personnel at the business mail entry units.
                                     When implemented, it could impact business mail
                                     acceptance workhours.

                                     This audit was conducted from August through
                                     December 2003 in accordance with generally accepted
                                     government auditing standards, and included such tests
                                     of internal controls as were considered necessary under
                                     the circumstances. We discussed our conclusions and
2
 A group of mailpieces within the same class and mail processing category that may be sorted together under the
appropriate standards.


                                                      2
Efficiency of Work Performed by Clerks in the                                      NO-AR-04-001
 Southern Maryland Business Mail Entry Unit


                                  observations with appropriate management officials and
                                  included their comments, where appropriate.

   Prior Audit Coverage           We have issued four prior audit reports on the efficiency of
                                  business mail entry units. (See Appendix B for details.)




                                                3
Efficiency of Work Performed by Clerks in the                                                         NO-AR-04-001
 Southern Maryland Business Mail Entry Unit



                                            AUDIT RESULTS
    Assessment of                  Our review disclosed workhours within the Southern
    Employees’                     Maryland Business Mail Entry Unit were excessive in
    Workhours                      relation to the number of business mailings processed.
                                   Postal Service policies3 require business mail entry units
                                   ensure the efficient use of workhours. Furthermore,
                                   FY 2002 mailings per workhour were well below
                                   benchmarked units. Postal Service management agreed
                                   20,240 workhours4 could be eliminated based on business
                                   mail volumes, benchmark data, and observations of
                                   business mail operations.

                                   As shown in the table below, FY 2002 mailings per
                                   workhour5 for the Southern Maryland Business Mail Entry
                                   Unit was 1.13 while the average for comparable6 business
                                   mail entry units were 1.51. This means the Southern
                                   Maryland Business Mail Entry Unit processes a little over
                                   one mailing per workhour versus one and a half mailings per
                                   workhour on average for a similar business mail entry unit.

                                   Table 1 – FY 2002 Business Mail Entry Unit Comparison


                                                                                 NUMBER           MAILINGS
                                                              LDC 797               OF              PER
                                                            WORKHOURS            MAILINGS        WORKHOUR
                                         Southern8
                                         Maryland                79,533            89,554              1.13

                                        Benchmark                60,410            91,437              1.51
                                        (average of
                                          10 sites)

                                   In addition, Appendix C highlights how the Southern
                                   Maryland Business Mail Entry Unit compares to similar sites
                                   for mailings per workhour for FY 2002.

3
  Handbook DM-109, Business Mail Acceptance, Chapter 2.
4
  Workhour reductions were based on the Southern Maryland Business Mail Entry Unit Action Plan. (See
Appendix E.)
5
  Mailings per workhour is defined as the number of business mail entry unit mailings divided by the number of
LDC79 (labor distribution code) workhours.
6
  Comparative sites have revenue greater than $40 million and mailings within +/- 11 percent of the Southern
Maryland Business Mail Entry Unit.
7
  LDC 79 is the labor distribution code for mail acceptance.
8
  See footnote 1.


                                                       4
Efficiency of Work Performed by Clerks in the                                                           NO-AR-04-001
 Southern Maryland Business Mail Entry Unit



                                    The Southern Maryland Business Mail Entry Unit has
                                    51 full-time employees. Thus, it has the second highest
                                    number of employees when compared to comparable sites
                                    for FY 2002. While not unusual by itself, there is cause
                                    for concern when productivity measures are below
                                    expectations. Appendix D highlights how the Southern
                                    Maryland Business Mail Entry Unit compared to other
                                    similar sites for the number of employees.

                                    To corroborate our analysis, observations of the Southern
                                    Maryland Business Mail Entry Unit revealed employees had
                                    excessive idle time. This can be attributed to:

                                        •    Inconsistencies between bulk mail entry unit hours
                                             of operation and mail arrival times.

                                        •    Low mailing volumes per workhour.

                                        •    Business mail entry unit managers not evaluating
                                             and adjusting staffing levels based on current mail
                                             volumes.

    Management’s                    To improve productivity, Postal Service managers agreed to
    Actions                         reduce business mail entry workhours in the Southern
                                    Maryland Business Mail Entry Unit by 20,240 hours by the
                                    end of FY 2006 primarily through attrition. While holding
                                    mail volume constant, these actions would raise productivity
                                    to approximately 1.51 mailings per workhour based upon
                                    FY 2002 mailings and hours. These actions could also
                                    produce an estimated cost avoidance of approximately
                                    $8.49 million over the next 10 years. Appendix E details the
                                    financial impact of workhour reductions planned by the
                                    Southern Maryland Business Mail Entry Unit.

    Recommendations                 To improve business mail entry productivity, we recommend
                                    the manager, Capital District:

                                    1. Reduce business mail entry hours as planned.

                                    2. Periodically evaluate staffing to determine if further
                                       workhour reductions are necessary based on workload.
9
 Based on Postal Service’s methodology, the cost avoidance was projected over 10 years using Postal Service’s
assumptions for annual workhours, the business mail entry clerk labor rate, and the latest labor escalation factor.
(See Appendix E.)


                                                        5
Efficiency of Work Performed by Clerks in the                                     NO-AR-04-001
 Southern Maryland Business Mail Entry Unit




 Management’s                   Management agreed with our finding and recommendations,
 Comments                       including the reduction of business mail entry workhours by
                                20,240 by the end of FY 2006. Management’s comments,
                                in their entirety, are included in Appendix F of this report.

 Evaluation of                  Management’s comments are responsive to the
 Management’s                   recommendations. Management’s actions taken or planned
 Comments                       should correct the issues identified in the report.




                                                6
Efficiency of Work Performed by Clerks in the                                                                                                                                                                                                                                                                                                            NO-AR-04-001
 Southern Maryland Business Mail Entry Unit




                                                                                                                  APPENDIX A
                                                                                                           BUSINESS MAIL ENTRY UNIT
                                                                                                           MAILINGS PER HOUR TRENDS
                                                                                    (AP 03, FY 2000 THROUGH AP 11, FY 2003)




  2.50




  2.00




  1.50




  1.00




  0.50




  0.00
         AP03 FY2000
                       AP05 FY2000
                                     AP07 FY2000
                                                   AP09 FY2000
                                                                 AP11 FY2000
                                                                               AP13 FY2000
                                                                                             AP02 FY2001
                                                                                                           AP04 FY2001
                                                                                                                         AP06 FY2001
                                                                                                                                       AP08 FY2001
                                                                                                                                                     AP10 FY2001
                                                                                                                                                                   AP12 FY2001
                                                                                                                                                                                 AP01 FY2002
                                                                                                                                                                                               AP03 FY2002
                                                                                                                                                                                                             AP05 FY2002
                                                                                                                                                                                                                           AP07 FY2002
                                                                                                                                                                                                                                         AP09 FY2002
                                                                                                                                                                                                                                                       AP11 FY2002
                                                                                                                                                                                                                                                                     AP13 FY2002
                                                                                                                                                                                                                                                                                   AP03 FY2003
                                                                                                                                                                                                                                                                                                 AP05 FY2003
                                                                                                                                                                                                                                                                                                               AP07 FY2003
                                                                                                                                                                                                                                                                                                                             AP09 FY2003
                                                                                                                                                                                                                                                                                                                                           AP11 FY2003




                                                                                                     National                                            Capital Metro                                                           Southern Maryland

AP=accounting period.

Note: The benchmarked mailings per hour for FY 2002 was 1.51 and consisted of all business
mail entry units with revenue greater than $40 million and mailings within 11 percent of the
Southern Maryland Business Mail Entry Unit.




                                                                                                                                                                                               7
Efficiency of Work Performed by Clerks in the                               NO-AR-04-001
 Southern Maryland Business Mail Entry Unit


                                      APPENDIX B
                                 PRIOR AUDIT COVERAGE

Work Performed by Business Mail Entry Employees in the Colorado/Wyoming
Performance Cluster (Report Number CQ-AR-02-001, dated September 26, 2002),
disclosed many Denver Bulk Mail Center and Denver General Mail Facility business
mail entry employees were not needed to accept business mailings. As a result,
management could save an estimated $1 million annually. We recommended
management oversee the consolidation of business mail entry operations and reduce
staff as planned, and reevaluate staffing to determine if further staff reductions are
necessary. Management agreed and the actions taken and planned were responsive to
the issues identified in the report.

Work Performed by Business Mail Entry Employees in the Seattle, Minneapolis, and
Des Moines Bulk Mail Centers (Report Number CQ-AR-03-001, dated March 28, 2003),
disclosed workhours necessary to accept business mailings at these facilities should be
reduced. As a result, management could produce an estimated cost avoidance of
$588,730 through the end of FY 2005 by fully implementing its planned workhour
reductions. We recommended senior plant managers of the Seattle, Minneapolis, and
Des Moines Bulk Mail Centers reduce hours, periodically reevaluate staffing needs, and
ensure appropriately trained personnel perform acceptance functions. Management
agreed and the actions taken and planned were responsive to the issues identified in
the report.

Efficiency of Work Performed by Business Mail Entry Clerks Within the Los Angeles
District (Report Number AO-AR-03-001, dated July 31, 2003), disclosed workhours
necessary to accept business mailings at the facilities we reviewed should be reduced.
During the audit, Postal Service management agreed to aggressively reduce business
mail entry workhours by 28,800 hours by the end of FY 2005. We calculated the
financial impact of this reduction in workhours could produce an estimated cost
avoidance of approximately $9.26 million over 10 years. We recommended the
manager, Los Angeles District, reduce hours and reevaluate staffing needs periodically.
Management agreed with our recommendations and has initiatives in progress
addressing the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks in the San Francisco
Business Mail Entry Unit (Report Number AO-AR-03-002, dated September 25, 2003),
disclosed workhours necessary to accept business mailings in the San Francisco
Business Mail Entry Unit should be reduced. During the audit, Postal Service
management agreed to aggressively reduce business mail entry workhours by
18,000 hours by the end of FY 2006. We calculated the financial impact of this
reduction in workhours could produce an estimated cost avoidance of approximately
$6.9 million over 10 years. We recommended the manager, San Francisco District,
reduce hours as planned and reevaluate staffing needs periodically. Management


                                                8
Efficiency of Work Performed by Clerks in the                               NO-AR-04-001
 Southern Maryland Business Mail Entry Unit


agreed and the actions taken and planned were responsive to the issues identified in
the report.




                                                9
Efficiency of Work Performed by Clerks in the                                            NO-AR-04-001
 Southern Maryland Business Mail Entry Unit




                             APPENDIX C
                  FY 2002 BUSINESS MAIL ENTRY UNIT
           MAILINGS PER WORKHOUR FOR COMPARATIVE SITES
  (SITES CHOSEN WERE WITHIN + OR –11 PERCENT OF SOUTHERN MARYLAND’S MAILINGS)




      SOUTHERN MARYLAND


                 COLUMBUS


                MILWAUKEE


                  MISSOURI


                  HOUSTON


               MINNEAPOLIS


               SANTA ANNA


                  PHOENIX


                   BOSTON


                  CHICAGO


               BIRMINGHAM

                            0.00       0.50      1.00         1.50         2.00   2.50         3.00
                                                     Average Mailings Per Hour




Note: In FY 2002, the Washington D.C., business mail entry operations were transferred to the
Southern Maryland Business Mail Entry Unit. Because of this mixing, our review includes
combined data for both the Southern Maryland and Washington D.C., Business Mail Entry Units,
and the combination is labeled as Southern Maryland in this report.




                                                10
Efficiency of Work Performed by Clerks in the                                         NO-AR-04-001
 Southern Maryland Business Mail Entry Unit




                            APPENDIX D
             FY 2002 BUSINESS MAIL ENTRY UNIT STAFFING
            LABOR DISTRIBUTION CODE (LDC) 79 COMPARISON
  (SITES CHOSEN WERE WITHIN + OR –11 PERCENT OF SOUTHERN MARYLAND’S MAILINGS)




     SOUTHERN MARYLAND

                COLUMBUS

               MILWAUKEE

                 MISSOURI

                 HOUSTON

              MINNEAPOLIS

              SANTA ANNA

                 PHOENIX

                  BOSTON

                 CHICAGO

              BIRMINGHAM

                            0           10           20           30            40   50        60
                                                          NUMBER OF EMPLOYEES




Note: In FY 2002, the Washington D.C., business mail entry operations were transferred to the
Southern Maryland Business Mail Entry Unit. Because of this mixing, our review includes
combined data for both the Southern Maryland and Washington D.C., Business Mail Entry Units,
and the combination is labeled as Southern Maryland in this report.




                                                11
Efficiency of Work Performed by Clerks in the                                            NO-AR-04-001
 Southern Maryland Business Mail Entry Unit




                            APPENDIX E
             SOUTHERN MARYLAND BUSINESS MAIL ENTRY UNIT
                           COST AVOIDANCE
                       (FUNDS PUT TO BETTER USE)

                                           Yearly
                                                            Fully Loaded         Cost Avoidance
                                          Workhour
                     Year                                   Labor Rate/Hr   (10 Years with escalation)
                                          Reduction

        FY 2004                              3,680             $ 40.29             $ 3,553,510
        (Effective Accounting Period 1)
        FY 2005                              9,200             $ 41.30             $ 4,256,553
        (Effective Accounting Period 1)
        FY 2006                              7,360             $ 42.33             $ 3,490,374
        (Effective Accounting Period 1)
          Totals (10 full fiscal years)     20,240                                 $11,300,437
                                                            Present Value
                                                            @4.5 percent,          $ 8,398,222
                                                              10 Years




SOURCE

    •    Workhour reductions were based on the Postal Service Southern Maryland Action Plan.

ASSUMPTIONS

    •    Labor rates were based on the Postal Service 2003 Published Rates for a PS-06 business mail
         entry unit technician.

    •    Yearly escalation factor is 2.5 percent.

    •    Postal Service cost of borrowing is 4.5 percent.

FUNDS PUT TO BETTER USE -- Funds that can be used more efficiently by implementing
recommended actions.




                                                     12
Efficiency of Work Performed by Clerks in the          NO-AR-04-001
 Southern Maryland Business Mail Entry Unit


                   APPENDIX F. MANAGEMENT’S COMMENTS




                                                13
Efficiency of Work Performed by Clerks in the        NO-AR-04-001
 Southern Maryland Business Mail Entry Unit




                                                14
Efficiency of Work Performed by Clerks in the        NO-AR-04-001
 Southern Maryland Business Mail Entry Unit




                                                15
Efficiency of Work Performed by Clerks in the        NO-AR-04-001
 Southern Maryland Business Mail Entry Unit




                                                16
